TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Limitations in the Sample Size
                       for the Internal Revenue Service’s
                     Employment Tax Study May Impact the
                     Ability to Determine Compliance Levels



                                           May 17, 2010

                              Reference Number: 2011-10-034




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
                                                     .


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


LIMITATIONS IN THE SAMPLE SIZE FOR                    Study are expected to be comprehensive in
THE INTERNAL REVENUE SERVICE’S                        nature.
EMPLOYMENT TAX STUDY MAY IMPACT                       The overall objective of this review was to
THE ABILITY TO DETERMINE                              determine whether the sampling methodology
COMPLIANCE LEVELS                                     developed by the Office of Research, Analysis
                                                      and Statistics to conduct the Study will provide a
                                                      valid representation of employment tax
Highlights                                            compliance rates for business taxpayers.

Final Report issued on May 17, 2011                   WHAT TIGTA FOUND
                                                      The IRS selected the sample of employers to
Highlights of Reference Number 2011-10-034            include in the Study based on available
to the Internal Revenue Service Director for the      resources. However, the audit results for the
Office of Research, Analysis and Statistics.          sampled taxpayers may not enable IRS
                                                      management to fully estimate compliance levels
IMPACT ON TAXPAYERS
                                                      for business taxpayers. As a result, IRS
The Internal Revenue Service (IRS) Office of          management indicated that additional audits
Research, Analysis and Statistics initiated the       may be required after the Study is completed.
Employment Tax Study (the Study) to update
                                                      In addition, the IRS plans to sample only
estimates of the Tax Gap (the difference
                                                      50 large/international business taxpayers in
between taxes owed and taxes timely paid)
                                                      each year of the Study, which may be too small
attributable to business employers. However,
                                                      of a sample to provide meaningful compliance
the audit results for the taxpayers included in the
                                                      estimates for these taxpayers. Further, IRS
Study may not enable IRS management to fully
                                                      management specifically excluded some larger
estimate compliance levels for business
                                                      employers due to the time necessary to
taxpayers. Having a more complete
                                                      complete these complex audits. As a result, the
understanding of these filers is essential for the
                                                      Study will not provide any information about the
IRS to focus its limited resources in areas where
                                                      compliance levels of these employers.
it could be most productive, which should
ultimately reduce the burden on compliant             WHAT TIGTA RECOMMENDED
taxpayers and result in more accurate Tax Gap
data.                                                 TIGTA recommended that the IRS develop an
                                                      action plan for any future employment tax study
WHY TIGTA DID THE AUDIT                               that outlines management’s strategy to achieve
                                                      their goal of updating the employment Tax Gap
The audit was initiated because employment
                                                      estimates, determine the percentage of the total
taxes are a major source of revenue for the
                                                      population that the excluded entities represent,
Federal Government, and it has been more than
                                                      and evaluate whether future employment tax
25 years since the IRS conducted a
                                                      studies should include the large employers
comprehensive review of employer tax
                                                      excluded in this Study.
compliance. Some IRS officials believe the
current Tax Gap estimate is significantly             In their response to the report, IRS officials
understated. In February 2010, the IRS began          agreed with our recommendations. IRS
its first Employment Tax Study to better estimate     management agreed to develop goals and
the Tax Gap for underreported employment              project plans during the design phase of every
taxes and determine compliance rates for              IRS reporting compliance research study. In
business taxpayers.                                   addition, they plan to document the findings
                                                      related to the excluded entities as companion
Results from other studies indicate there are
                                                      data to the Study results. Finally, management
several underlying factors that contribute to the
                                                      agreed to reevaluate whether future employment
underreporting of employment taxes. As a
                                                      tax studies should include the large employers.
result, the employment tax audits included in the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 17, 2011


 MEMORANDUM FOR DIRECTOR, RESEARCH, ANALYSIS AND STATISTICS



 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Limitations in the Sample Size for the
                             Internal Revenue Service’s Employment Tax Study May Impact the
                             Ability to Determine Compliance Levels (Audit # 201110001)

 This report presents the results of our review of the sampling methodology developed by the
 Internal Revenue Service (IRS) Office of Research, Analysis and Statistics (RAS) to conduct the
 Employment Tax Study. Our overall objective was to determine whether the sampling
 methodology developed by the IRS Office of RAS to conduct the Study will provide a valid
 representation of employment tax compliance rates for business taxpayers. This audit is part of
 the Treasury Inspector General for Tax Administration’s Fiscal Year 2011 Annual Audit Plan
 and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura,
 Assistant Inspector General for Audit (Management Services and Exempt Organization), at
 (202) 622-8500.
                             Limitations in the Sample Size for the Internal Revenue
                                Service’s Employment Tax Study May Impact the
                                     Ability to Determine Compliance Levels




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Is at an Early Stage in
          Its Efforts to Improve Compliance Estimates for
          Business Taxpayers ....................................................................................... Page 3
          The Study Will Not Enable the Internal Revenue Service
          to Fully Estimate Compliance for Large Employers .................................... Page 5
                    Recommendation 1:........................................................ Page 7

                    Recommendations 2 and 3: .............................................. Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Stratified Sample for Calendar Year 2008 ........................... Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
        Limitations in the Sample Size for the Internal Revenue
           Service’s Employment Tax Study May Impact the
                Ability to Determine Compliance Levels




                     Abbreviations

FY            Fiscal Year
IRS           Internal Revenue Service
LB&I          Large Business and International
RAS           Office of Research, Analysis and Statistics
SB/SE         Small Business/Self-Employed
TE/GE         Tax Exempt and Government Entities
                        Limitations in the Sample Size for the Internal Revenue
                           Service’s Employment Tax Study May Impact the
                                Ability to Determine Compliance Levels




                                            Background

In 2005, the Internal Revenue Service (IRS) released preliminary results of a major research
effort to quantify the Tax Gap using data from Tax Year 2001 and before.1 The IRS estimated
the Tax Gap was $345 billion in 2001. This equates to a voluntary compliance rate of almost
84 percent. Late payments and IRS enforcement action reduced this to a net Tax Gap of
$290 billion.
The three components of the Tax Gap are:
    •   Underreporting – Not reporting one’s full tax
        liability on a timely filed return.
                                                                            The last employment tax study
    •   Nonfiling – Not filing required returns on time.                        was completed in 1984.
                                                                                  Because of outdated
    •   Underpayment – Not timely paying the full amount                       information, the Tax Gap
        of tax reported on a timely filed return.                                estimate attributed to
                                                                            underreporting of employment
Underreported tax liability ($285 billion) comprises                          taxes of $15 billion may be
83 percent of the gross Tax Gap ($345 billion). Of this                        significantly understated.
underreported amount, $54 billion (19 percent) is related to                   In February 2010, the IRS
underreported employment taxes. This estimate is comprised                     began audits under a new
                                                                                Employment Tax Study.
of:                                                                              The IRS plans to audit
    •   Federal Unemployment Tax – $1 billion.                                    approximately 2,200
                                                                                  employers annually.
    •   Social Security and Medicare Taxes – $14 billion.
    •   Self-Employment Taxes – $39 billion.2
The $15 billion estimated Tax Gap for Federal Unemployment Tax and Social Security and
Medicare Taxes is considerably outdated, and some IRS officials believe it is significantly
understated.3 The IRS has not conducted a comprehensive study of business taxpayers’
compliance with employment taxes since 1984. Further, less than one-quarter of 1 percent (0.25)
of employment tax returns were audited based on Calendar Year 2009 data.4 In February 2010,


1
  The Tax Gap is the difference between taxes owed and taxes actually paid on a timely basis.
2
  Employment tax compliance related to self-employed taxpayers (with no employees) was not addressed in this
Study. The underreporting of Self-Employment Taxes is estimated to be $39 billion based on studies of individual
reporting compliance.
3
  The Self-Employment Taxes estimate is more current and is considered to be a more reliable estimate.
4
  Based on the number of returns examined in Fiscal Year 2009 as a percentage of all employers with a filing
requirement in Calendar Year 2008.
                                                                                                          Page 1
                        Limitations in the Sample Size for the Internal Revenue
                           Service’s Employment Tax Study May Impact the
                                Ability to Determine Compliance Levels



the IRS began its first Employment Tax Study (hereafter referred to as the Study) in 25 years5 to
better estimate the Tax Gap for underreported employment taxes and determine compliance rates
for business taxpayers. The overall goals of the Study are to:
    •   Secure statistically valid information to determine the employment Tax Gap.
    •   Determine compliance rates of employers to focus IRS resources on the most
        noncompliant areas.
    •   Improve examination workload selection models (for future audits).
The Study calls for audits of randomly selected employers who filed an Employer’s Quarterly
Federal Tax Return (Form 941) for any quarter during Calendar Years 2008, 2009, or 2010. The
IRS plans to audit approximately 6,600 of the estimated 6.1 million employers filing Forms 941
beginning in Fiscal Year (FY) 2010.6
The sample of employers will be selected and the audit results will be compiled by the IRS
Office of Research, Analysis and Statistics (RAS). At the conclusion of the Study, the IRS
hopes to have a better understanding of which industries and employers are at the highest risk for
underreporting their employment taxes. The methodology used to identify and select employers
for the Study is important to achieve the most accurate results. The individual audits will be
conducted by employees within three IRS operating divisions: Small Business/Self-Employed
(SB/SE), Large Business and International (LB&I),7 and Tax Exempt and Government Entities
(TE/GE).
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of RAS during the period August 2010 through January 2011. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
We relied on published data and other information provided by the Office of RAS and the United
States Department of the Treasury and audit reports issued by the Treasury Inspector General for
Tax Administration and the Government Accountability Office. The information obtained from
published data and provided directly by the Office of RAS was not independently verified or
validated by the Treasury Inspector General for Tax Administration. Detailed information on
our audit objective, scope, and methodology is presented in Appendix I. Major contributors to
the report are listed in Appendix II.


5
  The IRS Headliner Volume 280, dated November 9, 2009.
6
  See Appendix IV for additional information on the sample size by type of employer.
7
  The Large and Mid-Size Business Division reorganized in FY 2010 and is now the LB&I Division.
                                                                                                  Page 2
                         Limitations in the Sample Size for the Internal Revenue
                            Service’s Employment Tax Study May Impact the
                                 Ability to Determine Compliance Levels




                                       Results of Review

The IRS selected the sample of employers to include in the Study based on available resources.
However, the audit results for the sampled taxpayers may not enable IRS management to fully
estimate compliance levels for business taxpayers. As a result, IRS management indicated that
additional audits may be required after the Study is completed to improve the IRS’s estimates of
business taxpayers’ reporting compliance.
Specifically, management will not fully know the usefulness of the Study’s results until
FY 2015, when all audits are completed and the results are compiled. As a result of the
relatively small total sample size that can be addressed by IRS resources, there is a risk that the
IRS may not collect sufficient data to provide reasonable estimates of compliance levels and the
Tax Gap. In addition, the IRS plans to sample only 50 large/international business taxpayers in
each year of the Study, which may be too small of a sample to provide meaningful compliance
estimates for these taxpayers.
Further, IRS management specifically excluded some larger employers (e.g., the Federal
Government; corporations with assets greater than $250 million, etc.) from the Study due to the
time necessary to complete these more complex audits. As a result, the IRS will not obtain any
data for these taxpayers related to trends and patterns of noncompliance.
Until the IRS obtains complete and updated data on areas of employment tax noncompliance,
management will not have accurate information about the employers that are the most likely to
underreport their taxes. Having a more complete understanding of these filers is essential for the
IRS to focus its limited resources in areas where they could be most productive, which should
ultimately reduce the burden on compliant taxpayers and result in more accurate Tax Gap data.

The Internal Revenue Service Is at an Early Stage in Its Efforts to
Improve Compliance Estimates for Business Taxpayers
RAS management stated that, due to the lack of updated employment tax compliance data, they
consider the Study a pilot project and will not definitively know the usefulness of the test results
until after the audits are completed.8 Because of the time needed to conduct the audits, it is likely
the IRS will not fully know the usefulness of the Study until FY 2015, when all of the audits
should be completed.



8
  A pilot project is typically a small-scale preliminary study conducted before the main research in order to check the
feasibility or to improve the design of the research.
                                                                                                              Page 3
                        Limitations in the Sample Size for the Internal Revenue
                           Service’s Employment Tax Study May Impact the
                                Ability to Determine Compliance Levels



Results from prior studies indicate that there are several underlying factors that contribute to the
underreporting of employment taxes. As a result, the employment tax audits that comprise the
Study are expected to be comprehensive in nature, and auditors will focus on the underlying
issues that ultimately determine the wages paid and employment tax liabilities. For example,
since employers may incorrectly classify certain workers as independent contractors to avoid
liability for employment taxes, auditors are expected to determine the worker’s correct
employment status so that the correct wages and taxes are reported. The IRS identified four
areas that are considered high risk for noncompliance that auditors are expected to address when
applicable:9
     1) Worker classification issues.
     2) Fringe benefits.
     3) Reimbursed expenses.
     4) Officer compensation.
To fully address these (and other) issues, auditors will need to expand the scope of the audits
beyond the information provided on the Form 941 selected for the sample. For the employers
selected, the audits will focus on the wages paid for an entire calendar year (this will include
Forms 941 for all four quarters). Other (employment and nonemployment tax) returns will also
be examined to support the amounts reported on the employment tax returns. This could include
unemployment, corporate, partnership, nonprofit, and information returns.10 As a result, each
audit is expected to take approximately 2 years to complete. RAS management anticipates that
the final results will not be available until FY 2015, as shown in Figure 1.
                       Figure 1: Fiscal Year Timeline for the Audits
                              and Availability of Results

        Year Selected Returns
         Are to Be Assigned                 Availability of                 Availability of
             to Auditors                 Initial Audit Results            Final Audit Results
         2010 (2008 Returns)                       2012                            2013
         2011 (2009 Returns)                       2013                            2014
         2012 (2010 Returns)                       2014                            2015
     Source: RAS management, December 2010.


9
 Not all audits will involve all four focus areas, and some will address more issues.
10
  Information returns such as the Wage and Tax Statement (Form W-2) or the Miscellaneous Income
(Form 1099-MISC.) are required to report various types of payments made by businesses throughout the calendar
year.
                                                                                                        Page 4
                            Limitations in the Sample Size for the Internal Revenue
                               Service’s Employment Tax Study May Impact the
                                    Ability to Determine Compliance Levels



The independent contractor employed by the IRS to review the sample design noted that the
Study results will not be readily available for several years. As a result, the IRS will not have
adequate data available during the course of the Study to refine the sampling methodology as
needed to help identify the most noncompliant taxpayers. The contractor identified three options
to address this issue:
       1) Continue to sample returns under the current design for 1 to 2 years beyond the
          Calendar Year 2010 returns.
       2) Refine the sampling methodology without using the initial results from the audits.
       3) Suspend data collection after review of Calendar Year 2010 audit results until a
          satisfactory new design can be developed.
RAS management indicated it would be optimal to continue the Study to include additional
years, much like a rolling study to achieve more precise results.11 However, this will require the
three IRS operating divisions involved in the Study to continue to provide the resources needed
to perform additional audits beyond the current 3-year commitment.

The Study Will Not Enable the Internal Revenue Service to Fully
Estimate Compliance for Large Employers
During the Study, the IRS plans to sample only 50 large/international business taxpayers in each
year of the Study, which may be too small of a sample to provide meaningful compliance
estimates for these taxpayers. Further, IRS management specifically excluded some larger
employers (e.g., the Federal Government, corporations with assets greater than $250 million,
etc.) from the Study due to the time necessary to complete these more complex audits. As a
result, the IRS will not obtain any data for these taxpayers related to trends and patterns of
noncompliance.

The Sample does not include a sufficient number of large employers to estimate
compliance levels
Based on the Study’s methodology, approximately 68 percent of the planned audits represent
small business employers. In addition, over 25 percent of the planned audits relate to tax exempt
employers. The Study will provide the most meaningful results to estimate compliance levels for
these types of employers. However, only slightly more than 2 percent of the Study’s planned
audits (50 per year) relate to large employers. As a result, Study data will be of limited use in
determining the compliance behavior for these employers.




11
     A rolling study is a multi-year project in which results are updated as more current data become available.
                                                                                                                   Page 5
                        Limitations in the Sample Size for the Internal Revenue
                           Service’s Employment Tax Study May Impact the
                                Ability to Determine Compliance Levels



The original sample design broken out by IRS operating division is shown in Figure 2.
               Figure 2: Proposed Annual Sample for Calendar Year 2008
                    (Year 1 of the Sample) by IRS Operating Division

                                                                    Sample          Percent of
             IRS Operating Division                                  Size            Sample

             SB/SE Small Business/Self-Employed                     1,500             68.97%

             TE/GE Tax Exempt Organizations12                          535            24.60%

             TE/GE Government Entities13                               9014            4.14%

             LB&I Large Business & International                        50             2.30%

             Total                                                  2,175             100%15
           Source: RAS management, September 2010.

The IRS estimates there are over 5.5 million small businesses16 with employees that represent
90 percent of the total employer population. In FY 2008, the IRS estimated that small business
employers filed more than 85 percent of all employment tax returns. However, large employers
accounted for over 45 percent of the total United States payroll.17
The outside research firm that RAS management consulted indicated that, although the overall
sampling plan was adequate for a pilot Study, they were concerned about the small size of the
LB&I and the TE/GE Government Entities samples. They expressed concern that “if compliance
is as high as earlier estimates suggest, these samples will provide mere handfuls of noncompliant
returns, too few to illuminate patterns or highlight significant new forms of noncompliance.”18
While the IRS doubled the sample size for Government Entities for Calendar Year 2009, no
additional plans have been made to increase the size of the LB&I Division sample from the
50 per year originally planned. As part of our review, we consulted with an independent

12
   Nonprofit organizations are exempt from income tax under Internal Revenue Code Section 501 and can include
charities, religious organizations, business leagues, or social clubs.
13
   Government entities are exempt from income tax and are comprised of three distinct customers: Federal, State,
and local governments; Indian Tribal governments; and Tax Exempt Bonds. Although not subject to Federal income
tax, these entities are responsible for income tax withholding and employment taxes.
14
   The number of TE/GE government entities in the sample doubled for Calendar Year 2009.
15
   The total exceeds 100 percent due to rounding.
16
   A “small” business generally has total assets under $10 million.
17
   A “large” business has total assets greater than $10 million.
18
   An Evaluation of the Sample Design and Methodology for the National Research Program Employment Tax
Reporting Compliance Study, Mathematica Policy Research, Inc., Final Report dated January 29, 2010.
                                                                                                        Page 6
                        Limitations in the Sample Size for the Internal Revenue
                           Service’s Employment Tax Study May Impact the
                                Ability to Determine Compliance Levels



statistician who confirmed the plan was adequate, but also expressed concern that the
LB&I Division sample size might be too small to analyze and identify noncompliant employers.
RAS management agreed that the sample size is smaller than preferable; however, they advised
us that since the IRS conducts ongoing audits of the largest businesses, many of these employers
are already subject to review. As a result, RAS management indicated that they may use the
results of ongoing audits to assist in estimating compliance levels for these taxpayers. They also
stated that these taxpayers may be more compliant than smaller employers; however, they could
not provide documentation to support their assumption.
While we concur that many of the larger businesses are already subject to ongoing examinations,
it is not apparent how many of these audits actually involve employment tax issues or how
results from these audits will be incorporated into the Study. Further, we have no basis to concur
with the RAS assertion that larger employers are more likely to be compliant with their
employment tax obligations. As such, we are concerned that the small LB&I Division sample
size could prevent the IRS from identifying patterns of noncompliance among the largest
employers. Consequently, this could impair the IRS’s ability to measure compliance and
effectively plan future audit studies for this segment of employers.

Recommendation
The Director, RAS, should:
Recommendation 1: Develop an action plan for any future employment tax study that
outlines management’s strategy to achieve their goal of updating the employment Tax Gap
estimates and focusing IRS resources on the most noncompliant areas.
        Management’s Response: Management agreed with this recommendation and
        indicated they plan to continue to develop goals and project plans during the design phase
        of every IRS reporting compliance research study. IRS management plans to monitor the
        delivery of the 3 tax years of the Study and incorporate any lessons learned into the plans
        for future research efforts.

The Study will not provide any information related to the compliance levels of
some tax exempt and large employers
The Study will not give the IRS complete information about the employment tax community
because some types of employers are excluded from the Study. Specifically, the IRS elected to
exclude Federal Government agencies, the three largest State Governments,19 and many of the
largest corporations (which would require a team of IRS auditors to conduct the audits)20 because

19
  The excluded State Governments are California, New York, and Texas.
20
  A team examination approach is required on “coordinated industry cases” assigned to the LB&I Division, which
involve businesses (and their effectively controlled entities) with assets of $250 million or more.
                                                                                                        Page 7
                           Limitations in the Sample Size for the Internal Revenue
                              Service’s Employment Tax Study May Impact the
                                   Ability to Determine Compliance Levels



of concerns about the audit resources required to complete these large-scale audits. In addition,
Indian Tribal governments, foreign subsidiaries, and maritime employers are also excluded from
the Study.
Figure 3 shows the segments of the population excluded from the Study.
                    Figure 3: Form 941 Employers Excluded From the Study

             IRS Operating Division                        Segment of the Population Excluded
             SB/SE                                         No Specific Exclusions
             TE/GE – Tax Exempt Entities                   Church Entities (2008 only)21
             TE/GE – Government Entities                   Three Largest State Governments
                                                           (California, New York, and Texas)
             TE/GE – Government Entities                   Federal Government
             TE/GE – Government Entities                   Indian Tribal Governments
             LB&I (LMSB)                                   Coordinated Industry Cases
             LB&I                                          Foreign Subsidiaries
             LB&I                                          Maritime Industry
          Source: RAS management.

As a result of the various exclusions, the Study will not address noncompliance within these
groups of employers, and any conclusions drawn from the Study will be limited to the employer
populations reviewed. RAS management agreed that any Tax Gap projections would be limited
to the populations studied and that they would disclose any limitations in any reports
summarizing the results of the Study.
We asked RAS management how many employers were excluded from the Study, but they were
unable to provide this information. As a result, we were not able to quantify the percentage of
the total population that the excluded entities represented (either as a percentage of the total
number of employers or the total wages paid).




21
     IRS management indicated that 2009 and 2010 returns would be included in the Study.
                                                                                                Page 8
                     Limitations in the Sample Size for the Internal Revenue
                        Service’s Employment Tax Study May Impact the
                             Ability to Determine Compliance Levels



Recommendations
The Director, RAS, should:
Recommendation 2: Determine the percentage of the total population that the excluded
entities represent (either as a percentage of the total number of employers or the total wages
paid) and ensure this information is documented in the Study results.
       Management’s Response: Management agreed with this recommendation and plans
       to document the findings related to the excluded entities as companion data to the Study
       results.
       Office of Audit Comment: During our fieldwork, we reviewed a report from the
       independent contractor, indicating that all State Governments were excluded from the
       Study. When we discussed this with RAS management, they advised us that the three
       largest State Governments were excluded from the Study because of the time that would
       be required to conduct these audits. However, after we issued our draft report, RAS
       management informed us the information they had previously provided about the State
       Governments was incorrect. Management clarified that their sample design for the
       50 largest businesses was inclusive of all State Governments, but none were selected for
       the sample.
Recommendation 3: Evaluate whether future employment tax studies should include the
large employers excluded in this Study.
       Management’s Response: Management agreed with the recommendation and plans
       to reevaluate whether future employment tax studies should include the large employers.




                                                                                            Page 9
                    Limitations in the Sample Size for the Internal Revenue
                       Service’s Employment Tax Study May Impact the
                            Ability to Determine Compliance Levels



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the sampling methodology developed by the IRS
Office of RAS to conduct the Employment Tax Study (the Study) will provide a valid
representation of employment tax compliance rates for business taxpayers. To accomplish the
objective, we:
I.     Interviewed RAS management to determine the goals and strategic objectives of the
       Study and how the results will be used to measure business taxpayers’ compliance with
       employment taxes.
II.    Interviewed RAS management to determine the specific sampling methodology used to
       select the employers for the Study.
       A. Determined the types of tax returns included in the population for the sample.
       B. Determined which segments of the population were intentionally excluded from the
          sample selection and why.
III.   Evaluated the validity of the sampling process developed for the Study.
       A. Consulted with an independent statistician to determine whether the sampling
          methodology used by the Office of RAS is adequate for its stated objectives.
       B. Determined whether the sample methodology is statistically valid to project the
          results to the population of employment tax filers.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our audit objective.




                                                                                           Page 10
                       Limitations in the Sample Size for the Internal Revenue
                          Service’s Employment Tax Study May Impact the
                               Ability to Determine Compliance Levels



We relied on published data and other information provided by the Office of RAS and the United
States Department of the Treasury1 and audit reports issued by the Treasury Inspector General
for Tax Administration2 and the Government Accountability Office.3 The information obtained
from published data and provided directly by the Office of RAS was not independently verified
or validated by the Treasury Inspector General for Tax Administration.




1
  Update on Reducing the Federal Tax Gap and Improving Voluntary Compliance, United States Treasury
Department Report (dated July 8, 2009).
2
  An Appropriate Methodology Has Been Developed for Conducting the National Research Program Study to
Measure the Voluntary Compliance of Individual Income Taxpayers (Reference Number 2009-30-086, dated
June 2009) and An Improved Management Process Is Needed to Measure the Impact of Research Efforts on Tax
Administration (Reference Number 2009-10-095, dated July 21, 2009).
3
  Better Compliance Data and Long-term Goals Would Support a More Strategic IRS Approach to Reducing the Tax
Gap (GAO-05-753, dated July 2005).
                                                                                                   Page 11
                   Limitations in the Sample Size for the Internal Revenue
                      Service’s Employment Tax Study May Impact the
                           Ability to Determine Compliance Levels



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Mary F. Herberger, Lead Auditor
Theresa M. Berube, Senior Auditor
Mark A. Judson, Senior Auditor




                                                                                  Page 12
                    Limitations in the Sample Size for the Internal Revenue
                       Service’s Employment Tax Study May Impact the
                            Ability to Determine Compliance Levels



                                                                           Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Office of Research, Analysis and Statistics RAS




                                                                                 Page 13
                              Limitations in the Sample Size for the Internal Revenue
                                 Service’s Employment Tax Study May Impact the
                                      Ability to Determine Compliance Levels



                                                                                          Appendix IV

                Stratified Sample for Calendar Year 2008
The Office of Research, Analysis and Statistics designed the Calendar Year 2008 sample based
on input from the IRS operating divisions. The sample size of each division is determined by the
employees available to complete the audits.
                                        Form 941 – Proposed Strata for SB/SE
    Strata Definition ( Annual Wages Paid)           Number of Employees     Population    Initial Sample
    Total Wages <= $20,000                                                   1,441,792           175

    $20,000 < Total Wages <= $50,000                                        1,044,511            175

    $50,000 < Total Wages <= $100,000                                         864,670            200

    $100,000 <Total Wages <= $200,000                                         780,522            225

    $200,000 < Total Wages <= $500,000                       < 50              733,580          200
                                                             >= 50               8,046           50
    Total Wages > $500,000                                   < 50              485,573          225
                                                             >= 50             146,431          250
    Total                                                                    5,505,125        1,500
                           Form 941 - Proposed Strata for TE/GE Exempt Organizations
    Total Wages <= $75,000                                                    174,988            100

    $75,000 < Total Wages <= $250,000                                          97,760            100

    $250,00 < Total Wages <= $1,000,000                                        65,176            150

    Total Wages > $1,000,000                                                   44,785            185
    Total                                                                     382,709            535
                              Form 941 - Proposed Strata for TE/GE Government Entities1
    All Government Entities                                                    74,398             90
                                             Form 941 - Proposed Strata for LB&I
    All LB&I                                                                  134,634             50
Source: RAS Management, September 2010.



1
    The number of TE/GE Government entities sampled doubled for Calendar Year 2009.
                                                                                                   Page 14
      Limitations in the Sample Size for the Internal Revenue
         Service’s Employment Tax Study May Impact the
              Ability to Determine Compliance Levels



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 15
Limitations in the Sample Size for the Internal Revenue
   Service’s Employment Tax Study May Impact the
        Ability to Determine Compliance Levels




                                                      Page 16
Limitations in the Sample Size for the Internal Revenue
   Service’s Employment Tax Study May Impact the
        Ability to Determine Compliance Levels




                                                      Page 17
